              OFFICE OF
              INSPECTOR
              GENERAL
              UNITED STATES POSTAL SERVICE

 `




           Benchmarking of Costing
               Methodologies

              Management Advisory




                                      August 14, 2013

Report Number MS-MA-13-004
                                                                       August 14, 2013

                                           Benchmarking of Costing Methodologies

                                                       Report Number MS-MA-13-004



BACKGROUND:
The U.S. Postal Service’s                   meet the evolving needs of the Postal
product-costing system is designed to       Service in the 21st Century.
meet the statutory reporting
requirements that each class of mail        WHAT THE OIG FOUND:
bears the costs to that class or service    While the Postal Service uses several
and inform management decisions. The        best practices in product costing,
system, refined over many years,            changes are needed to reduce postal
commenced with passage of the Postal        investments in the process and improve
Reorganization Act of 1970.                 the usefulness of the resulting data.
                                            Such improvements include moving
Costing data are derived from the           from expensive manual data collection
accounting system, with costs attributed    systems to an increased use of
to products based on data from manual       automated data collection systems.
sampling, statistical systems, and          Currently, the Postal Service spends
special studies. This is the second of      about $100 million annually to develop
two reviews requested by the chief          the costing data reported to the Postal
financial officer and executive vice        Regulatory Commission.
president. The first described the
background and history of the Postal        Further enhancements include the use
Service's costing methodologies and         of more granular data, more timely
concerns with those methodologies. The      reporting (some reporting is quarterly
objective of this review was to identify    and some is annual), and better
potential enhancements to the current       coordination among groups within the
Postal Service’s costing approach that      Postal Service.
could be used to better inform business
decisions and competitive pricing.          WHAT THE OIG RECOMMENDED:
                                            We recommended the Postal Service
This report identifies evolutionary         enhance its current product-costing
enhancements to the current costing         system by establishing an
system. However, as the Postal              organization-wide strategy, better
Service’s costing needs become              coordinating among functional units
increasingly complex, entire alternative    regarding data usage, and generating
costing systems should also be              more granular and timely costing
evaluated. Therefore, at the request of     information.
the postmaster general, we will
separately review whether new               Link to review the entire report
approaches to costing would better
August 14, 2013

MEMORANDUM FOR:            JOSEPH CORBETT
                           CHIEF FINANCIAL OFFICER AND
                           EXECUTIVE VICE PRESIDENT

                           ELLIS A. BURGOYNE
                           CHIEF INFORMATION OFFICER AND
                           EXECUTIVE VICE PRESIDENT



FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                            for Revenue and Performance

SUBJECT:                   Management Advisory – Benchmarking of Costing
                           Methodologies
                           (Report Number MS-MA-13-004)

This report presents the results of our review of the Benchmarking of Costing
Methodologies (Project Number 12RG026CRR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Janet Sorensen, director, Sales
and Marketing, or me at 703-248-2100.

Attachment

cc: Megan J. Brennan
    Joseph E. Nash
    Steven R. Phelps
    Virginia J. Mayes
    Corporate Audit and Response Management
Benchmarking of Costing Methodologies                                                                             MS-MA-13-004




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Opportunities for Improvement ........................................................................................ 2

   Granularity of Data ...................................................................................................... 2

   Timeliness of Reporting ............................................................................................... 3

   Coordination and Planning .......................................................................................... 4

Cost Concepts................................................................................................................. 6

   Cost Types .................................................................................................................. 6

   Costing Approaches .................................................................................................... 9

Recommendations ........................................................................................................ 10

Management’s Comments ............................................................................................ 10

Evaluation of Management’s Comments ....................................................................... 11

Appendix A: Additional Information ............................................................................... 12

   Background ............................................................................................................... 12

   Objective, Scope, and Methodology .......................................................................... 12

   Prior Audit Coverage ................................................................................................. 14

Appendix B: Cost Concepts and Usage ........................................................................ 16

Appendix C: Development of Bottom-Up Costing ......................................................... 21

Appendix D: Glossary and Key Terms .......................................................................... 24

Appendix E: Management's Comments ........................................................................ 29
Benchmarking of Costing Methodologies                                                             MS-MA-13-004



Introduction

This report presents the results of our benchmarking of the U.S. Postal Service’s
Costing Methodologies (Project Number 12RG026CRR000). This report responds to a
request from the chief financial officer and executive vice president to benchmark the
Postal Service’s costing methodologies against those of other organizations to identify
best practices for possible implementation. The objective of this review was to identify
potential alternatives or enhancements to the Postal Service’s costing approach that
could be used to better inform business decisions and competitive pricing.

This is the second of two reports responding to a request by the chief financial officer
and executive vice president. The first report addressed the background and history of
the Postal Service’s product costing methodologies, as well as known concerns with
those methodologies. The U.S. Postal Service Office of Inspector General (OIG) also
issued a white paper on short-run costing and Postal Service pricing at the request of
the chief financial officer and executive vice president.1 This review addresses financial
risk. See Appendix A for additional information.

The Postal Service maintains a product-costing system designed to meet statutory
reporting requirements to ensure that each class or type of mail bears the direct and
indirect costs to that class or service and provide information to support management
decisions. This system was developed with passage of the Postal Reorganization Act of
1970 and has since been refined.

As a result of the Postal Accountability and Enhancement Act (PAEA) of 2006, the
costing methods and use of cost data are under the purview of the Postal Regulatory
Commission (PRC). The Postal Service files its costing results with the PRC every year
as part of the Annual Compliance Report. The PRC verifies that approved
methodologies were followed in developing the costs. The PRC must approve changes
to the approved methodologies. Such changes could be the result of rulemaking
involving other parties interested in postal costing.

Conclusion

While the Postal Service uses several best practices in product costing, changes are
needed to reduce postal investments in the process and improve the usefulness of the
resulting data. Such improvements include moving from expensive manual data
collection systems to an increased use of automated data collection systems. Currently
the Postal Service spends about $100 million annually to develop the costing data
reported to the PRC.




1
    Short-Run Costing and Postal Pricing (Report Number RARC-WP-13-004, dated January 9, 2013).
                                                         1
Benchmarking of Costing Methodologies                                            MS-MA-13-004



Further enhancements include the use of more granular data, more timely reporting
(some reporting is quarterly and some is annual), and better coordination among groups
within the Postal Service.

Based on recommendations we have made in prior audits, the Postal Service has taken
some steps to explore additional ways to obtain and use automated data (see Prior
Audit Coverage for details). However, we believe additional opportunities exist for the
Postal Service to use automated data generated by its systems and processing
equipment, especially with the increased use of intelligent mail barcoding. As the Postal
Service continues to focus on cutting costs and creating specific rates for individual
customers, it will need improved cost data. More granular cost data, such as regional,
seasonal, or even carrier route-level data will help tailor customer specific contracts,
allowing the Postal Service to have more pricing flexibility and increase its ability to be
more competitive.

We will provide the technical benchmarking report to management, in its entirety, under
separate cover.

Opportunities for Improvement

The benchmarked organizations demonstrating leading practices in product cost
reporting use systems that produce more granular data, provide timelier reporting and
include high levels of coordination and planning. Enhancements to the Postal Service’s
current cost reporting system would provide management with more timely and
accurate data for day-to-day decision making as well as the necessary information
required for more competitive customer-specific pricing.

Granularity of Data

In addition to reporting more frequently, most benchmarked organizations primarily use
system-generated (automated) data for producing cost reports. Many of the postal
operators and nonpostal businesses we surveyed have systems for extracting
automatically generated data from product handling operations. Some organizations
surveyed are significantly ahead of the Postal Service in their use of operations data
instead of special finance studies to support the product costing system. The benefits of
moving to operations data include:

   Data that is more timely, with the eventual possibility of near real-time.

   Data that is more granular, which results in better costing of more disaggregated
    views of the Postal Service product line, such as customer-specific costs, regional
    costs, or costs at the ZIP Code-level.

   A decreased level of special effort required to collect data.



                                              2
Benchmarking of Costing Methodologies                                                                  MS-MA-13-004



The Postal Service currently develops costing information from data acquired from
manual collection of statistical sampling tests and special studies to supplement the
automated data.2 In 2010, the total budget for the Regulatory Reporting and Cost
Analysis group was $102 million, which includes manual data collection, statistical
sampling, production of the Cost and Revenue Analysis (CRA), and other functions.

The availability of suitable information is required to move from a reliance on manual
data collection and special studies to the use of operational data to support product
costing analysis. This would provide the basis for significant improvements in the quality
of cost data, the methods to develop cost estimates, and the variety of cost reports
available to management. The use of automated data may allow for performing CRA at
the ZIP Code-level or relevant regional areas to support the development of customer-
specific rates where appropriate.

The Postal Service has taken steps to explore additional ways of obtaining automated
data. We believe additional opportunities exist to use more of the automated data
generated by the Postal Service’s systems and processing equipment, especially with
the increased use of Intelligent Mail® barcodes (IMb). As the Postal Service continues to
focus on cutting costs and creating specific rates for individual customers, it will need
improved cost data. More granular cost data, such as regional, seasonal, or even carrier
route or ZIP Code-level data will assist management in tailoring customer specific
contracts. However, a major challenge with using automated data is the difficulty of
obtaining accurate, reliable, and timely data. We highlighted specific challenges with
data in our recent audit on data governance.3

Timeliness of Reporting

Most of the benchmarked organizations report official cost data to a regulator or their
government annually and two organizations report quarterly. In addition, three
organizations produce quarterly product costs for internal use by management, and
two organizations do so monthly. The other organizations provide management product
costs annually or on an as-needed basis.

The Postal Service produces the CRA report for regulatory reporting and management
purposes annually, although ad-hoc cost reports are provided to management quarterly.
The quarterly reports are not considered statistically reliable, as certain required
parameters (such as sample design change, panel rotation, and software changes) are
available only annually. We have previously acknowledged in the field of pricing, the
importance of timely data for decision making in a competitive environment. Without
near real-time volume and revenue data for products, it is unlikely that management can
ever manage prices/products effectively. Assuming a price/product could be
appropriately priced to generate new revenue and cover costs, unknown changes in
volume or revenue could indicate that a product thought to be profitable has actually


2
    To provide data for these systems, data collectors conduct almost 600,000 manual data collection readings a year.
3
    U.S. Postal Service Data Governance (Report Number DP-AR-13-004(R), dated April 23, 2013).
                                                            3
Benchmarking of Costing Methodologies                                                                 MS-MA-13-004



become unprofitable.4 Moreover, stakeholders and management have observed that
some costing data may be too stale for dynamic decision making.5

Increased use of system-generated data could enable the Postal Service to produce
more reliable cost data at increased frequencies and at more disaggregated levels.
These enhancements would provide management with more accurate and timely
information for better management decision making.

Table 1 summarizes the frequency with which benchmarked organizations report cost
data.

                                    Table 1. Frequency of Product Cost Reporting
           Reporting
           Timeframe                       To Management                                   To Regulator

                                       Postal               Foreign               Postal            Foreign
                                       Service               Posts                Service            Posts
     Monthly                             No                  2 of 9                 N/A              0 of 9
     Quarterly                            Yes                3 of 9                 N/A              2 of 9
     Annually                             Yes                4 of 9                  √               7 of 9
    Source: Participating foreign postal organizations and national regulatory agencies.

Coordination and Planning

The benchmarked organizations with the best product costing processes had an
actively integrated development and management system involving finance, operations,
product managers, and sales.

Typically, operations produced most of the data while the finance organization analyzed
the data to develop and disseminate product cost estimates for use by headquarters
staff, product managers, and sales. The benchmarked organizations asserted that this
is a well-coordinated process with checks and balances through established
procedures. For example, in some organizations, before the operations organization
makes changes that would affect data quality, approval from the finance organization is
required. Also, mechanisms exist for product managers and sales staff to participate in
the methodology decisions affecting the allocation of costs. When unexpected cost
changes occur, the operations, finance, and product offices jointly troubleshoot the
issue to identify whether the root cause is in the data, analysis methodologies, or in
operations.

In a prior audit report we recommended that the Postal Service establish coordination
mechanisms among operations, finance, and users of cost data to govern data


4
    Postal Pricing Strategy (Report Number CI-AR-12-002, dated December 9, 2011).
5
    Postal Service Product Costing Methodologies (Report Number MS-MA-13-002, dated April 11, 2013).
                                                          4
Benchmarking of Costing Methodologies                                                           MS-MA-13-004



production and reporting. 6 In response to these recommendations, the Postal Service
established a steering committee and is exploring additional data sources for use in
product costing. However, based on our interviews with Postal Service officials, while
some conversations have started, the coordination process exhibits shortfalls relative to
the leading practices of the benchmarked partners. For example, some officials cited
instances in which operations units changed data production protocols without the
knowledge of the finance personnel who use the data. Other Postal Service officials we
interviewed observed that there may be relevant data currently collected for operational
purposes but it is not leveraged for product cost analysis, suggesting that opportunities
exist for finance to use current operations data. In addition, existing operations data may
not include data relating to certain functional areas, such as manual mail handling.

The Postal Service could further enhance communications and coordination by
establishing a formal process between the finance officials responsible for the CRA
report, the product managers who use the cost data, and Operations managers who
provide input data. This will be critical to the process of creating a useful roadmap,
ensuring that requirements from a CRA perspective are considered along with the
primary operational needs of the Postal Service. It may be the case that, as certain
operational systems are planned, implemented, and upgraded there may be
opportunities for small requirement changes that would be highly beneficial to the
analysts preparing the CRA.

The two key 'customer-supplier' relationships involved are:

   The customer-supplier relationship between the users, or 'customers,' of the product
    costing system data (such as Postal Service pricing, marketing, budgeting, and
    Operations executives and the PRC) and the suppliers of the CRA report (such as,
    the Postal Service's Finance team).

   The customer-supplier relationship between the 'customer' of operations data (such
    as the finance team producing CRA reports) and the 'supplier' of operations data
    (such as the operations managers that own the operational workload tracking
    systems).




6
 Transportation Cost System Inputs into the Cost and Revenue Analysis (Report Number CRR-AR-11-004, dated
September 19, 2011); Revenue, Pieces, and Weight Inputs Into the Cost and Revenue Analysis (Report Number
CRR-AR-12-003, dated January 27, 2012); and In-Office Cost System Inputs into the Cost and Revenue Analysis
(Report Number CRR-AR-12-004, dated May 3, 2012).
                                                        5
Benchmarking of Costing Methodologies                                      MS-MA-13-004




These relationships are depicted in Figure 1.




    Source: OIG.

Cost Concepts

If successfully implemented, improvements such as timely reporting, more granular
data, and better coordination of functional units could lead to more fundamental
changes to the Postal Service’s costing systems. Such changes could include bottom-
up costing used by a majority of the benchmarking organizations and by the
Postal Service for cost avoidance calculations to support its workshare programs. By
implementing systems and procedures similar to the benchmarked organizations, the
Postal Service will be able to produce higher quality, more useful data for effective
management decision making.

Cost Types

The benchmarked foreign postal operators and nonpostal businesses use a variety of
recognized cost types for business decision making.




                                           6
Benchmarking of Costing Methodologies                                                                 MS-MA-13-004




Such cost types include marginal, incremental, fully distributed, and stand-alone costs.

   Marginal cost is the cost of producing one additional unit of a product.

   Incremental cost is the total cost removed if a specific product were eliminated all
    together.

   Fully distributed costing (FDC) is a costing approach in which all costs — variable
    and fixed — are assigned to products offered.

   Stand-alone cost is the cost of a product when only that particular product is
    produced.

Marginal and incremental costs can be further characterized as long-run and short-run
costs. Long-run refers to a period that is long enough for costs to stabilize to reflect
changes in volume. Short-run costs result when the period is not long enough for costs
to adjust to reflect changes in volume. Institutional costs, sometimes referred to as
overhead costs, are costs that are shared and cannot be reliably attributed to a
particular product.

   Long-run refers to costs that would exist if the postal operator or nonpostal business
    were optimizing the utilization of their assets. Because changes in demand for the
    postal or nonpostal businesses’ products, along with other factors, can cause
    underutilization or overutilization of assets in the short run, long-run often assumes a
    time horizon when optimization can be achieved.

   Short-run costs reflect operations in which one or more inputs cannot be varied in
    contrast to long run where all inputs can be varied. As a matter of practicality, for the
    Postal Service, the long-run usually refers to the costs that are expected to be
    current for 1 to 3 years in the future. Short-run refers to current and near future when
    an underutilization or overutilization of assets may exist. For instance, the Postal
    Service claimed excess delivery capacity existed in 2009 and that marginal delivery
    costs would be less than official CRA estimates as new mail volume was stimulated
    through a temporary price reduction, known as a summer sale. 7 By the following
    year, the Postal Service claimed that the excess delivery capacity had been
    sufficiently reduced to eliminate it as a justification for the second summer sale. 8
    CRA cost estimates usually are considered to approximate long-run marginal costs.

Table 2 presents the most common types of costs used by the benchmarked
organizations as well as the Postal Service.

7
  See U.S. Postal Service: Notice of Market-Dominant Price Adjustment, page 3 of PRC Docket Number R2009-3.
This 'Summer Sale' incentive program is not only designed to increase mail volume, but the timing of the program will
take advantage of the Postal Service’s current excess capacity to deliver additional volume at relatively low cost
during the summer months.
8
  See U.S. Postal Service: Notice Of Market-Dominant Price Adjustment, page 3 of PRC Docket Number R2009-3;
and page 16 of PRC Docket Number R2010-3.
                                                         7
Benchmarking of Costing Methodologies                                                                     MS-MA-13-004




      Table 2. Comparison of Product Cost Types Used by the Postal Service and
                               Benchmarked Partners

                                                                                            Other Regulated
                                                 Postal          Foreign Postal                or Similar
                 Approach                        Service           Operators                  Businesses
      Long-Run Incremental Cost                   Yes                 8 of 99                    2 of 4
      Long-Run Marginal Cost                      Yes                5 of 9                      4 of 4
      Short-Run Marginal Cost                     Yes10              1 of 9                      3 of 4
      Fully Distributed Cost                      Yes11              8 of 9                      4 of 4
      Stand-Alone Cost                             No                4 of 9                      1 of 4
      Standard Cost12                              No                1 of 9                      1 of 4
     Source: Participating foreign postal organizations, national regulatory agencies, and other organizations.

Although most benchmarked organizations calculate various types of costs, they use
only one cost type as the basis for pricing. Table 3 shows the cost types used for pricing
by the benchmarked organizations and the Postal Service.


                     Table 3. Usage of Cost Estimates as a Basis for Pricing

                                                                     Foreign              Other Regulated
                                                   Postal            Postal13                or Similar
                  Approach                         Service          Operators               Businesses
        Long-Run Incremental Cost                    No               2 of 7                   0 of 4
        Long-Run Marginal Cost                      Yes               2 of 7                   3 of 4
        Short-Run Marginal Cost                      No14             0 of 7                   0 of 4
        Fully-Distributed Cost                      Yes               3 of 7                   1 of 4
        Stand-Alone Cost                             No               0 of 7                   0 of 4
      Source: Participating foreign postal organizations, national regulatory agencies, and other organizations.

In addition to using cost types for management decision making, regulatory reporting,
and pricing, cost types are also used as a means of testing cross-subsidization.15 Most
regulatory agencies have restrictions with regard to cross-subsidization between
monopoly and nonmonopoly products. The most common cost type used for testing
cross-subsidization is long-run incremental costs. Four of the seven benchmarked
foreign postal organizations, as well as the Postal Service, use long-run incremental
costs to determine whether there is cross-subsidization. The other three benchmarked

9
  The eight participating foreign postal organizations plus Postcom provided information on a total of nine posts.
10
   The Postal Service used short-run marginal costs for its Summer Sales program.
11
   The Postal Service calculates FDC on an informal basis.
12
   Costs that are predetermined based on engineering studies.
13
   Please note that two of the foreign postal operators surveyed did not use cost estimates as a basis for pricing.
14
   The Postal Service did use short-run marginal costs for its Summer Sales program in 2009 and 2010.
15
   If a product’s revenue exceeds its incremental cost, that product is not subsidized by another product.
                                                            8
Benchmarking of Costing Methodologies                                                                     MS-MA-13-004



regulated organizations used fully distributed costs and stand-alone costs, respectively.
See Appendix B for additional information regarding cost types.

Costing Approaches

The Postal Service calculates various cost types such as marginal costs, incremental
costs, and fully distributed costs similar to the benchmarked organizations. The Postal
Service primarily employs the top-down costing approach for determining these costs.
In a top-down costing approach, cost accounting data from the general ledger are
identified at a global level and then successively assigned to activities, subactivities and
finally to elementary activities (tasks) using various accounting system assignment
methods. By contrast, in a bottom-up costing approach, product costs are developed by
estimating the cost of each individual elementary activity (task) of the mail handling
process and then summing up those costs.

                                Table 4. Usage of Bottom-Up Costing

                                                                              Use Bottom-Up
             Benchmarked Organizations                                           Costing
             Foreign Postal Operators                                             7 of 9
             Other Regulated or Similar Businesses                                3 of 4
            Source: Participating foreign postal organizations, national regulatory agencies, and other
            organizations.

Bottom-up costing has given several of the foreign postal operators and businesses
more flexibility in producing disaggregated pricing and helped identify areas of
inefficiency. Specifically, our survey of benchmarked organizations found claims that
production processes are much more uniform and adherence to work productivity
standards more rigorously enforced than in the Postal Service. Therefore, a bottom-up
approach would help the Postal Service develop more disaggregated data because it
would provide detailed cost information at the activity (task)-level for products.16

However, the Postal Service experiences significant diversity among facilities in
productivity in the various areas of operations, such as mail handling, even though
similar equipment and operating plans are used. This has implications on the ability to
develop bottom-up cost models that adequately reflect current Postal Service
operations to provide a primary source of cost estimates. So, while there may be
advantages to expanding the Postal Service’s use of bottom-up pricing, it warrants
cautious development and adoption.




16
  The Postal Service uses bottom-up costing approach for its cost avoidance models to determine such factors as
workshare discounts.
                                                       9
Benchmarking of Costing Methodologies                                         MS-MA-13-004




Recommendations

We recommend the chief financial officer and executive vice president:

1. Develop a formal process, in coordination with the chief information officer and chief
   operating officer, to strengthen the communication process between Finance,
   Operations, and users of the product costing system data regarding data needs and
   production.

2. Establish a long-term implementation plan, in coordination with the chief information
   officer and chief operating officer, to expand usage of system-generated data that
   includes a data transition roadmap.

We recommend the chief financial officer and executive vice president direct the
manager, Regulatory Reporting and Cost Analysis, to:

3. Expand usage of currently available system-generated data from operations or data
   that can be available in the near term to enable the product costing system to rely
   more on operations data and less on special studies.

4. Evaluate the feasibility of performing cost and revenue analysis at the ZIP Code-
   level or relevant regional areas to support development of customer-specific rates
   for those products for which such price distinctions are considered legal.

Management’s Comments

Management generally agreed with our findings and recommendations 1, 2, and 3.
Regarding recommendation 1, management has established interactions with
Engineering, Information Technology, and other groups to explore data requirements
and the availability and usefulness of census data. In subsequent communication,
management stated the completion date for this effort is July 31, 2016.

Regarding recommendations 2 and 3, Regulatory Reporting and Cost Analysis is
collaborating with Engineering, Information Technology, and Operations to analyze the
usefulness of data for use in the development of the CRA report. A cross-functional
team has begun identifying requirements for product costing and the availability of the
necessary data. Management stated the completion date for recommendations 2 and 3
is July 31, 2016.

Management disagreed with recommendation 4, stating that the benchmarking survey
showed only a few organizations measured costs at disaggregated bases, such as ZIP
Code-levels. Management asserted the recommendation demands using scarce but
significant resources for a complex task that only a few surveyed organizations
undertake. Management cited the dismantling of an Activity-Based Cost System as an
example of the Postal Service’s inability to develop cost, by shape, processed at the

                                            10
Benchmarking of Costing Methodologies                                        MS-MA-13-004



various processing plants. See Appendix E for management’s comments, in their
entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendations 1, 2, and
3 and corrective actions should resolve the issues identified in the report.

Regarding recommendation 4, the benchmarking survey revealed that growth in the use
of intelligent barcodes has facilitated the use of automatically-generated data in cost
analysis methods of foreign postal operators. Some of the organizations have almost
100 percent of their products barcoded and scan nearly every activity performed. Some
of these foreign postal operators extract and use images of mailpieces to obtain
information on the characteristics of the mail as being processed on sorting equipment.
These additional data sources help them produce product cost data at more
disaggregated levels.

The Postal Service has newer technologies, such as IMb and Surface Visibility,
providing granular data and increasingly greater product visibility. Leveraging these
additional capabilities, and properly integrating operational and financial systems, will
enable the Postal Service to move towards using system generated data to produce
more granular product cost information, such as product costs at ZIP Code-level. The
Postal Service executives we interviewed cited the need for such disaggregated data for
the efficient conduct of the Postal Service business. Consequently, we consider
management’s comments regarding recommendation 4 to be nonresponsive; however,
we will not pursue through the formal resolution process.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                           11
Benchmarking of Costing Methodologies                                          MS-MA-13-004




                            Appendix A: Additional Information

Background

The Postal Service maintains a product costing system designed to meet statutory
reporting requirements and provide information to support management decisions. This
system was developed and refined over many years, starting roughly with passage of
the Postal Reorganization Act of 1970. Until 2006, the product costing system’s main
purpose was to support the proceedings of rate cases filed by the Postal Service with
the PRC, though postal management has also used it to assist in budgeting, investment
decision analysis, and product marketing.

The PAEA requires that each product covers its attributable cost. The PAEA also
requires competitive products to collectively cover 5.5 percent of institutional costs.
Attributable cost for a particular product equals the total product volume variable costs
plus any product-specific costs. The PRC also uses cost estimates to ensure workshare
discounts do not exceed avoided costs and that revenue exceeds costs for
market-dominant products.

The current costing system uses activity-based costing (ABC) cost assignment
principles to allocate costs to products. The ABC system is based on economic
principles rather than accounting principles. ABC is a method of assigning costs to
activities using direct trace, cause-and-effect, or allocation basis. Economic principles
report marginal and incremental costs rather than fully assigned product costs.

The main output of the Postal Service’s product costing system is the CRA report. The
Postal Service obtains actual costs from its financial accounting system as the basis to
prepare the CRA report. Since the financial accounting system does not break costs
down to the mail class and product level, statistical information sources are used with
operational data to prepare the CRA report.

Objective, Scope, and Methodology

The objective of this review was to identify potential enhancements to or replacement of
the Postal Service’s costing approach that could be used to better inform business
decisions and competitive pricing.

We reviewed policies and procedures relating to the Postal Service's costing
environment and studied cost accounting procedures followed by foreign postal
organizations. We engaged a contractor to assist us in benchmarking product cost
accounting methodologies, followed by foreign postal organizations and organizations in
similar businesses. We provided guidance to the contractor and supervised its work




                                             12
Benchmarking of Costing Methodologies                                                                    MS-MA-13-004



to accomplish our audit objective. We interviewed Postal Service officials in Sales,
Operations, and Finance who use CRA report cost information to make business
decisions.

The benchmarking study encompassed eight foreign postal operators and their
associated National Regulatory Authorities (NRA), two large companies in regulated
industries, and two companies engaged in businesses similar to the Postal Service.
The eight participating foreign postal operators were:

      Australia Post.
      bPost, Belgium’s designated postal operator.
      Canada Post.
      La Poste, France’s designated postal operator.
      New Zealand Post.
      Post Danmark, Denmark’s designated postal operator.
      PostenAB, Sweden’s designated postal operator.
      Royal Mail, the United Kingdom’s designated postal operator.

The participating NRAs17 were:

      Autorité de Régulation des Communications Électroniques et des Postes, France’s
       NRA.

      Australian Competition and Consumer Commission, Australia’s NRA.

      Belgian Institute for Postal Service and Telecommunications, Belgium’s NRA.

      Ofcom, the United Kingdom’s NRA.

      Postcom, Switzerland’s NRA.18

      Swedish Post and Telecom Authority, Sweden’s NRA.

We also benchmarked with United Parcel Service and J.B. Hunt, two businesses with
operations similar to the Postal Service; and the Tennessee Valley Authority and
Southern California Edison, two organizations in the regulated industry.

We prepared benchmarking questionnaires, which the benchmarked partners
completed, and had debriefing conference calls with participants to review and clarify
the responses. Through the questionnaire responses and subsequent debriefing calls,
we obtained an understanding of how comparable organizations, postal services in
foreign countries, and similar regulated industry organization accounted for and
allocated operating costs. We evaluated the information gathered from the


17
     There is no postal regulatory authority in Canada. New Zealand’s NRA declined to participate.
18
     The eight participating foreign postal organizations plus Postcom provided information on nine posts.
                                                              13
Benchmarking of Costing Methodologies                                               MS-MA-13-004



benchmarked partners and compared and contrasted their costing methodologies to
those of the Postal Service.

We conducted this review from August 2012 through August 2013 in accordance with
the Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on May 29, 2013, and included their comments where appropriate.

We evaluated business processes, the availability of system-generated data, and
potential enhancements to systems and processes. We did not base our conclusions on
the results of computer-generated data, and therefore, did not evaluate the reliability of
any such data.

Prior Audit Coverage

                                                               Final Report
            Report Title                 Report Number             Date           Monetary Impact
  In-Office Cost System Inputs           CRR-AR-12-004          5/30/2012             $500,000
  into the Cost and Revenue
  Analysis Report
  Report Results:
  With additional system enhancements, the Postal Service could use data from mail processing
  systems to determine the mail processing portion of labor costs for products and services. With the
  proper system changes, the Postal Service could obtain the census data necessary for mail
  processing cost determination. This would reduce dependence on manual data collection and could
  provide annual net savings of about $500,000. The system enhancements would also provide
  important benefits to cost control, mail acceptance, and revenue protection. Management agreed
  with our recommendations but did not agree with the cost saving estimates.

  Revenue, Pieces, and Weight            CRR-AR-12-003          1/27/2012            $12,788,000
  Inputs into the Cost and
  Revenue Analysis Report
  Report Results:
  The Postal Service could significantly reduce manual data collection for Revenue, Pieces, and
  Weight estimation by modifying existing automated processes to collect mailpiece images for
  analysis and by moving sampling from delivery units to supporting processing plants. We estimate
  the Postal Service could save about $13 million in annual data collection costs. The Postal Service
  could make the hardware changes needed with existing technology, which would benefit both
  operational needs and statistical sampling efforts. Management agreed with the recommendations
  but disagreed with the assessment of the state of automated data and the cost-savings estimate.




                                               14
Benchmarking of Costing Methodologies                                               MS-MA-13-004




                                                              Final Report
             Report Title                Report Number            Date           Monetary Impact
  Transportation Cost System             CRR-AR-11-004         9/19/2011             $980,000
  Inputs into the Cost and
  Revenue Analysis Report
  Report Results:
  Additional planning, systems design, and system integration could enable the Postal Service to use
  more of the data generated by operational systems for CRA cost attribution purposes. We estimate
  the Postal Service could save about $980,000 in annual data collection costs. The Postal Service
  could make the hardware changes needed with existing technology, which would benefit both
  operations and statistical sampling efforts. Management agreed with the recommendations but
  disagreed with the assessment of the state of automated data and the cost-savings estimate.

  Cost and Revenue Analysis                 CRR-AR-10-003          7/27/2010              None
  Reporting Model
  Report Results:
  Controls over the development and maintenance of CRA reports were generally adequate.
  Supporting workbooks, formulas, and computer programming code are incorporated into the CRA
  model function as intended. However, the Postal Service needs to establish proper access controls
  for its shared network drive to limit file access to personnel who prepare and maintain CRA reports.
  Management agreed with the findings and recommendations.




                                               15
Benchmarking of Costing Methodologies                                                                     MS-MA-13-004




                                Appendix B: Cost Concepts and Usage

Fully Distributed Costs

Under the FDC approach, all costs, whether direct or indirect, are assigned to products.
Among the benchmarked organizations, costs that could not be directly associated with
a product, which are similar to the institutional costs in the Postal Service context, were
distributed proportionally to products based on some method considered causal by
management. These organizations typically used volumes or revenue to allocate the
overhead costs when not possible to make it proportionate to some already allocated
costs. In many organizations, choosing an allocation approach, such as volume,
revenue, or other factors, is based on management discussion and consensus rather
than established principles. Some organizations determine the allocation approach
annually. Other organizations, including the Postal Service, do not review the FDC
allocation approach annually, but rather on an as-needed basis, when someone in the
organization requests an adjustment.

Three foreign postal operators reported using FDC to establish a floor for pricing. One
used FDC as a cross-subsidy test while three reported no testing for cross-subsidy.
Another used it for calculating Universal Service Obligations (USO) and a third used it to
report to their regulatory authority. Only one made the number public. All postal
operators recognized that setting all prices close to FDC ensured that all costs were
covered and that a profit was generated but many claimed it was not a tenable or
sustainable position for all products due to the impact on customer usage. One postal
operator explicitly stated that an attempt to use FDC as a price floor resulted in prices
so high that customers abandoned the mail to such an extent that net revenue
decreased. Therefore, most postal operators and all nonpostal businesses recognized
that it could not be a universal price floor and that it was necessary to price below FDC
for many products.

Economists have asserted that distributing nonvolume variable costs by using arbitrary
allocation rules could be counterproductive.19 While the European Union Postal
Directives are often cited as requiring FDC as a cost floor, many of those interviewed in
this benchmark study claimed their prices merely needed to have a cost-based
orientation. 20 That is, their prices needed to be related to product cost. They asserted
that there was some flexibility in the type of cost used and that it was not required to be
FDC in all cases. The nonuniversal use of FDC as a basis for pricing demonstrates this
more flexible interpretation.

The Postal Service calculates an FDC for all products annually and presents results to
the Board of Governors. When new products are proposed, an FDC cost is presented to

19
   See white paper, Costs for Better Management Decisions: CRA Versus Fully Distributed Costs (Report Number
RARC-WP-12-016, dated September 17, 2012).
20
   Article 12 of the Third Postal Directive (2008/06/EC) provides that prices for each of the services forming part of the
universal service “shall be cost-oriented.”
                                                            16
Benchmarking of Costing Methodologies                                                                     MS-MA-13-004



the Board of Governors if the expected revenue as a percentage over marginal CRA
costs is less than a given hurdle rate. The Postal Service does not make the FDC public
or present FDC results to the PRC or make it an absolute floor for pricing.

Incremental Cost

Incremental cost is the cost that would be saved if the product was not offered but all
other products continued to be produced. In general, this comes from an analysis of the
product production processes. In the case of the Postal Service, incremental cost is the
sum of the volume variable and the infra-marginal costs plus any product-specific fixed
costs. Inframarginal cost is the total cost of providing all units of product minus the
volume-variable cost portion and any product-specific costs. Eight foreign postal
operators and two nonpostal businesses calculate an incremental cost for each product.

The foreign postal operators cited incremental cost exceeding revenue for a product or
group of products as the standard test for cross-subsidy.21 Four NRA we contacted cited
testing for cross-subsidy as one of the top three reasons for cost analysis, but three did
not cite it due to lack of a reserved area in their country. Several people we interviewed
from European postal operators or their regulator stated that a competition authority or
commission was the government organization that was concerned with existence of
cross-subsidy. The Postal Service reports incremental cost estimates to the PRC for
products classified as competitive.

The most commonly cited incremental costs were long-run incremental costs.
Incremental costs are used as an absolute price floor only by two of the benchmarked
foreign postal operators, but none of the nonpostal businesses claimed rigid adherence
to this principle. Unless a product’s unit revenue exceeds average incremental costs,
revenue will not cover the added cost of providing the product. But in some instances, it
was asserted that it is better to achieve some contribution to fixed costs by pricing
below incremental costs and retaining a customer than always insisting on pricing over
average incremental cost. However, incremental cost is a crucial decision-making factor
when introducing new products and when operating in a competitive market.

Calculating incremental costs for an existing product involves estimating what costs
would be if the product was eliminated and the other products remained as they are.
This can be highly speculative for large volume products since eliminating one of those
products could result in major modifications to the organization’s operating structure and
network costs. For example, eliminating First-Class Mail® service might result in a much
different delivery schedule and network configuration. But for small volume and new
products, incremental costs can generally be estimated in a reliable manner and are
widely used as a pricing floor to avoid cross-subsidies and ensure that products cover


21
  See Baumol, Panzar, and Willig, Contestable Markets and the Theory of Industry Structure, pages 351-356 and
508-509 for discussion of the use of incremental cost and stand-alone cost as tests for cross-subsidy. One postal
operator calculates both types of costs to test for cross-subsidies. It judges a product as being cross-subsidized if its
revenue is less than its incremental costs. Conversely, that postal operator judges a product to be a source of
cross-subsidy if revenue exceeds stand-alone costs.
                                                            17
Benchmarking of Costing Methodologies                                                              MS-MA-13-004



the cost of being included in the firm’s offerings. As such, it is a reasonable requirement
for the Postal Service’s competitive products.

Long-Run Marginal Costs

Five foreign postal operators and all four nonpostal businesses reported calculating
marginal costs for products. Three of these foreign postal operators and two of the
nonpostal businesses use bottom-up methods to calculate marginal costs.

The Postal Service calculates marginal costs similar to the way five foreign postal
operators and all four nonpostal businesses calculate marginal costs for their products.
The Postal Service calculates a set of marginal costs for each cost segment,
component, and subcomponent for the primary products and adds, wherever applicable,
a small product-specific cost to obtain the attributable costs for those products. For most
products attributable and marginal costs are nearly equal. The results are published
annually in the CRA report. The Postal Service also prepares quarterly estimates of
costs by product and distributes these estimates within the Postal Service, although
statistical variation in estimates over the first few quarters suggests that these estimates
are not fully reliable. As the year goes on and additional data are aggregated, the
estimates become more reliable and the fourth quarter report numbers are usually close
to those in the fiscal year report. These quarterly reports are not publically available.

For the Postal Service, attributable cost is the dividing line between a product being
considered profitable and unprofitable in that it either does or does not make a
contribution to common institutional costs. Thus, attributable cost is typically considered
as a price floor. Before passage of the PAEA in 2006, the Postal Service used
attributable cost as an absolute price floor for products in that subclasses had to have
revenue in excess of attributable costs. Under the PAEA caps, price increases are
based on consumer price index (CPI) changes and those increases do not necessarily
guarantee that attributable costs will stay within those price ranges. For example,
Periodicals class mail does not cover attributable costs despite annual price increases
at or near the CPI-based cap.

Even in instances in which higher prices might be feasible within the price cap, such as
with Standard Mail® flats, Postal Service prices have recently been set below
attributable costs in recognition of the need to use the scarce CPI cap authority to
increase prices for other products in that class of mail. However, generally, the Postal
Service treats marginal costs as the starting point for prices and in almost all cases the
price cap mechanism results in prices that cover marginal costs and provide some
contribution to covering network (or institutional) costs.22 The price floor is not where
most prices are set in the benchmarked organizations. Setting prices at marginal costs
plus some markup is common and is automatically satisfied when prices are set above
incremental or FDC costs. The benchmarked organizations avoid setting prices at or


22
  The two major exceptions to setting prices above marginal costs are Periodicals and Standard flats. See PRC
Docket ACR 2011.
                                                        18
Benchmarking of Costing Methodologies                                                          MS-MA-13-004



below marginal rates in most instances but consider it necessary in some cases, due to
market conditions.

Attributable cost estimates are also used as the building blocks for preparing cost
estimates for negotiated service agreements (NSAs) with customers whose mailings of
certain products, such as Priority Mail, will not incur all the cost elements included in the
attributable cost calculations for the product. In such cases, the attributable costs for the
candidate products are adjusted, often using bottom-up costing methods, by excluding
the cost elements the customer will not incur for the product. To determine work-sharing
discounts, the Postal Service calculates bottom-up cost models of the postal work
activities that are avoided because mailers are assuming these activities as part of their
work-sharing arrangement, thus reducing the Postal Service's activities. These modeled
costs are then weight-averaged and aggregated and the aggregated cost is adjusted to
match the CRA cost. This approach represents a hybrid method that uses both top-
down and bottom-up costs to calculate workshare discounts for special rate categories.

Only one foreign postal operator and two nonpostal businesses reported using marginal
costs as a price floor. None of the respondents use it to test for cross-subsidization. The
Postal Service uses marginal costs plus product-specific costs as the price floor.

Stand-Alone Costs

Four foreign postal operators and one nonpostal business use stand-alone costs. One
of these foreign postal operators uses stand-alone costs to develop the relative cost of
providing two different types of products. The ratio of these two stand-alone costs is
used to distribute the accounting system cost between two products. Another foreign
postal operator uses stand-alone costing to assess potential cross-subsidies.

Short-Run Marginal Costs

One foreign postal operator and three nonpostal businesses calculate short-run
marginal costs. They use these costs for special pricing to use excess capacity and
generate new volume for the period when short-run costs are expected to remain low.
Typically, excess capacity cannot be reduced in a short-run timeframe by adjusting the
use of resources. The Postal Service has used a form of short-run costs to support the
'summer sale' prices in 2009 and 2010.23 The nonpostal businesses contacted use
short-run marginal costs when there is excess capacity or a need to stimulate demand
in low-usage periods. For example, short-run marginal costs are used as a basis for
seasonal or time-of-day pricing.




23
  See U.S. Postal Service: Notice of Market-Dominant price Adjustment in PRC Docket Number R2009-3, page 3
and Docket Number R2010-3, page 16.
                                                        19
Benchmarking of Costing Methodologies                                                                   MS-MA-13-004



Allocation of Idle and Excess Capacity Costs in Cost Determination

We asked postal operators and companies in similar businesses how they allocate the
costs of idle capacity (such as unused facility space or automation equipment capacity)
that exist during certain periods of the day or year. Most do not specifically measure the
cost of idle capacity and, thus, distribute this cost to all products over the course of a
year. One postal operator allocates idle capacity cost to products that require it (such as
expedited products in transportation). One postal operator considers idle capacity cost
not to be incremental at the product or customer level and, therefore, does not assign it
to products. This is potentially the result of how the operator calculates incremental
costs. Two other businesses consider idle capacity as a peak-load cost24 and assign it
to the product or products that require idle capacity to meet service requirements.

We also queried the postal operators on how they allocate costs of excess capacity
(such as unused facility space or automation equipment capacity) that exist due to
declining mail volume. Two postal operators do not allocate excess capacity to products
and the others do not specifically identify excess capacity and distribute all capacity
costs to products. Most benchmark partners indicated that appropriate allocation of idle
and excess capacity is still a challenge.




24
   Peak load costs occur because of constraints placed on the ability of the Postal Service to handle the flow of mail
into and through postal operations in the most efficient manner. The difference in cost between the constrained
situation and the unconstrained, or less constrained, situation becomes the peak load costs due to the constraints
being examined. Conversely, it is the cost savings from removing or mitigating the constraints.

                                                          20
Benchmarking of Costing Methodologies                                         MS-MA-13-004




                    Appendix C: Development of Bottom-Up Costing

The Postal Service primarily employs the top-down costing approach for determining
product costs. In a top-down costing approach, cost accounting data from the general
ledger are identified at a global level and then successively assigned to activities,
subactivities, and, finally, to elementary activities or tasks using various accounting
system assignment methods and distribution keys derived from various sources, such
as sampling systems and operations data. By contrast, in a bottom-up costing
approach, product costs are developed by estimating the cost of each individual
elementary activity or task of the mail handling process and then summing up those
costs. A bottom-up approach would help the Postal Service to develop more
disaggregated data.

One post distributes delivery costs in an arbitrary 60, 30, and 10 ratio corresponding to
their products with overnight, 2-day, and 7-day delivery standards. Other foreign postal
operators perform extensive work measurement studies of each step of the production
process within an ABC cost pool to allocate costs to products. The result is a set of
factors that apportion the total costs of a production activity to products for a given
period , most commonly at least 1 year. Some foreign postal operators and nonpostal
businesses use these factors not only for existing products but also use factors such as
geographic location, product shape and weight, customer, and period that is used in
developing new, customer-oriented products. This disaggregation permits some foreign
postal operators and nonpostal businesses to produce costs by numerous subdivisions
as discussed below.

This development of models or factors to distribute all costs of the production steps
results in a FDC of those activities. In the case of the Postal Service and at least one
other post, only the volume variable share of the delivery costs is allocated to products
with the remainder characterized as institutional costs. To achieve fully distributed
costs, it is necessary to adopt some rules for distributing the institutional costs to
products. The most typical approach is to distribute in the same proportion as some set
of noninstitutional costs, revenue, and volume, or a combination of these, as the Postal
Service does.

When models of mail handling processes are used to estimate costs, the resulting total
costs will typically not equal the general ledger costs from the accounting system. When
a discrepancy occurs, it is necessary to adjust or reconcile the modeled costs by
adjusting the bottom-up estimate by some factor and subsequently modifying the
models to produce better matches. The Postal Service performs such adjustments on
the models used to estimate avoided costs from worksharing with mailers. These
adjustments can reach up to a factor of three for some components of the model, which
demonstrates that the models, while helpful, cannot produce accurate cost estimates on
their own, but rather must be considered in tandem with the general ledger costs.



                                            21
Benchmarking of Costing Methodologies                                          MS-MA-13-004



For foreign posts and nonpostal businesses that rely on bottom-up costs to make
pricing decisions, the variation between the modeled and general ledger costs was quite
small. This close approximation appears to stem from three observed conditions that
are not present in the Postal Service. One enabling condition is the ability to build the
models to reflect differences that affect productivity in operations, such as local excess
capacity, geography, and customers. One organization maintains models to a service
level equivalent to ZIP Codes, allowing the productivity factors used in the models to
accurately reflect operations. The ability to produce such models derives from the ability
to collect sizeable amounts of data from operations at each disaggregation level.

A second enabling condition is the uniformity of cost of similar operations. For example,
sorting facilities are either small in number or easy to manage in a uniform manner and
maintain equivalent productivity rates. Other posts or businesses aggressively manage
to achieve uniformity in productivity and consistently meet preset performance
standards.

A third enabling condition is the ability to quickly detect when models are failing to
accurately represent what is actually occurring. This capability is due to having near
real-time disaggregated data on cost drivers. In this manner, model failures can quickly
be detected and fixed before the need for a major reconciliation with accounting system
costs is necessary. Nevertheless, most posts and businesses using bottom-up costing
for the major share of costs perform an annual review and reconciliation of the model
costs and the general ledger. They claim that the system works with minor annual
reconciliations.

The Postal Service does not have the enabling conditions that allow extensive use of
bottom-up costing. Productivity varies significantly among sorting facilities rendering
models developed on the basis of averages not reflective of actual operations at each
sorting facility, and this likely contributes to the mismatch in accounting costs and
bottom-up estimates. Cost data estimates depend on surveys only statistically valid on
an annual and national basis, which inhibit disaggregation that could reflect differences
in productivity. With increased use of operations data, such as mail history and surface
visibility reports, greater standardization may occur. In addition, reducing the number of
mail processing facilities as volume decreases may assist in creating more standardized
mail processing environments and more uniform productivity among the residual
facilities. As use of operations data for cost estimation expands, it should be possible to
increase the disaggregation of costs in the analysis of data.

The foreign postal operators and nonpostal businesses using top-down approaches
typically do not model the production process to derive the allocation of costs to
products. Rather, they use econometric analysis or other analytic techniques to allocate
costs to products by ABC cost pool. The Postal Service identifies the cost of handling
an additional product by examining how the costs vary with volume at the margin. Then
these volume variable costs are distributed to products on the basis of distribution keys
reflecting pieces handled or labor hours expended on the activity product. Unless the
costs vary in direct proportion to volume or the cost driver (such as volume, cubic foot

                                            22
Benchmarking of Costing Methodologies                                            MS-MA-13-004



miles, transactions), the allocated costs will only be a portion of the total costs
determined by the accounting system.




                                              23
Benchmarking of Costing Methodologies                                            MS-MA-13-004




                          Appendix D: Glossary and Key Terms

 ABC              An accounting method of assigning costs to activities based on
                  their use of resources. Cost pools are created for groups of
                  activities that can be assigned together. Product assignment or
                  allocation methods are identified for each activity. The results are
                  then applied to the respective assignment or allocation methods to
                  determine the amount of each cost pool and each activity to be
                  assigned to each product or service.

 Attributable     Total volume variable costs of that product plus any product-
 Cost             specific fixed costs for that product. Since product-specific fixed
                  costs for postal products typically are small relative to volume-
                  variable costs, average attributable cost for the Postal Service is a
                  close approximation of marginal, or volume-variable, cost. The
                  PRC uses attributable cost to determine if each competitive
                  product is meeting the requirement to earn revenues in excess of
                  its cost.

 Bottom-Up        Estimating the cost of each individual element (activity/task) of the
 Costing          mail handling process and then summing those costs to develop
                  the product cost.

 Fixed Cost       Costs that do not vary with output over a given time period.

 Fully            A costing approach in which total costs, including institutional or
 Distributed      common costs, whether direct, indirect, variable, or fixed, are
 Costing          assigned to products offered. FDC accounting systems use
                  arbitrary methods to allocate fixed and indirect costs to products.

 Incremental      In a multiproduct firm like the Postal Service, incremental cost is
 Cost             the amount of cost avoided/incurred by eliminating/adding a given
                  product (for example, if the current output of a product were
                  reduced to zero and all associated costs with producing the
                  product were eliminated). These are the costs that would be
                  avoided, in the long-run, if the given product is no longer offered,
                  but all other products are retained. Incremental cost, defined over a
                  specified period such as 1 year, consists of the annualized fixed
                  costs of the product and all variable costs that would be avoided if
                  the product were not offered.

                  Incremental cost can be defined for a specific product or for a
                  group of products. When incremental cost is defined for a group of
                  products, the fixed costs to be included are all those costs that
                  would be avoided if the entire group of products were not offered.

                                             24
Benchmarking of Costing Methodologies                                            MS-MA-13-004




                  Incremental cost is usually expressed as average incremental cost.
                  This is obtained by dividing the incremental cost of a product by the
                  volume of the product.

                  If the price of a product exceeds its average incremental cost, the
                  firm is better off producing this product because its incremental
                  revenue is greater than its incremental cost. Incremental cost also
                  may serve as a cross-subsidy test: if incremental revenue exceeds
                  incremental cost for a particular product, the product is considered
                  as receiving no cross-subsidies.

                  The Postal Service calculates incremental cost as: incremental
                  cost = volume variable cost + infra-marginal cost + product-specific
                  fixed cost.

 Institutional    Costs for a group of products that are shared, joint, or common that
 Costs            cannot be reliably attributed on causal grounds to any particular
                  product. Institutional cost is composed of two parts: fixed costs and
                  'infra-marginal costs.' These costs are shared by the group in
                  question and consequently, they must be assigned to the
                  corresponding group of products or services as a whole.

                  Institutional costs are the residual after volume-variable and
                  product-specific fixed costs are subtracted from total costs. For the
                  Postal Service, product-specific fixed costs are quite small for most
                  products so institutional costs are roughly equal to total costs
                  minus volume-variable costs. Most institutional costs are not
                  traditional 'fixed costs' (such as overhead) but network costs.
                  Postal Service institutional costs include delivery infrastructure,
                  administrative and field support, and retail infrastructure.
                  Institutional cost determines the amount of 'mark-up' the Postal
                  Service must charge to break even.

 Long-Run         The long-run total cost divided by total output. It is always less than
 Average          or equal to short-run average costs.
 Cost
                  The 'long run' refers to a period long enough to allow for all inputs
                  to be changed. A significant volume change in the short run will
                  result in higher total costs than in the long run when inputs can be
                  combined in the optimal combinations to minimize total costs. The
                  period historically considered appropriate for postal costing is
                  around 3 years. Long-run average cost is always less than or equal
                  to short-run average cost.



                                             25
Benchmarking of Costing Methodologies                                            MS-MA-13-004



 Long-Run         The additional cost created by the 'last' unit of volume, when all
 Marginal         inputs can be varied. These are costs that vary with volume
 Cost             changes in the long run. For instance, they include costs such as
                  facility costs that cannot be adjusted in the short run but require a
                  period of time to allow them to be changed.

                  The 'long run' refers to a period long enough to allow for significant
                  adjustments to the volume change to be made. The period
                  historically considered appropriate for postal costing is around
                  3 years. Long-run marginal cost, in contrast to long-run average
                  cost, may be greater than, equal to or less than the short-run
                  marginal cost.

                  The 'long-run' refers to a period of sufficient duration to enable
                  significant adjustments to the volume change to be made. The time
                  period historically considered appropriate for postal costing is
                  around 3 years.

 Marginal         The cost of producing an additional unit (such as the last unit) of a
 Cost             given product/service as output changes. Marginal cost is
                  important for pricing analysis and yields a price floor for stand-
                  alone products. If price is below marginal cost then inefficient
                  production is taking place.

 Negotiated       A NSA offers a customized price to those customers who can avoid
 Service          certain costly activities or increase their volume of mail. In contrast
 Agreement        to a workshare discount, which is offered to all customers who can
                  avoid the activity for a specific rate category, NSAs are designed
                  with a specific customer in mind (though for market-dominant
                  products, 'similarly situated' customers must be offered the same
                  type of NSA).

 Product-         Costs that are directly attributable to a given product. For most
 Specific         postal products, product-specific fixed cost is a relatively small
 Cost             portion of cost. For the Postal Service, in fiscal year 2010, product-
                  specific fixed costs represented about 3 percent of total costs.

                  However, for some new products, especially digital products,
                  product-specific fixed costs, such as software development costs,
                  can be very significant.

 Reserved         The segment of postal services that is limited to those postal
 Area             operators providing universal services within national boundaries.
                  In practice, this means that letter mail/parcel under certain weight
                  and cost limits can only be handled by those operators who are
                  bound by USOs. The rationale behind the reserved area is that it is

                                             26
Benchmarking of Costing Methodologies                                             MS-MA-13-004



                  an appropriate form of compensation for taking on the uneconomic
                  burden of universal service, when this burden has been shown to
                  exist.

 Short-Run        The marginal costs for operations during a period short enough
 Marginal         that adjustments cannot be made to fully optimize postal assets.
 Cost             That is, when volume changes but all inputs cannot be adjusted
                  then the resulting costs are defined as short-run. It is typically the
                  near term until long-run changes are made to optimize the use of
                  assets. If assets are being optimally used then short-run equals
                  long-run cost.

 Stand-Alone      Costs involved in the production process in relation to how many
 Costs            units are produced.

 Standard         Costs based on an industrial engineering study that determines the
 Costing          standards of efficient operations and the relevant necessary
                  expenditures including capital material labor and overhead for a
                  selected period and for a prescribed set of working conditions or
                  production volume.

 Top-Down         In the top-down costing approach, cost accounting data from the
 Costing          general ledger are identified at a global level and then successively
                  assigned to activities, subactivities and finally to elementary
                  activities/tasks using various assignment methods.

                  Currently, the Postal Service’s workshare discounts are developed
                  using a top-down approach through the following steps:

                     Identify the activities that will be avoided for each type of
                      workshare.

                     Using bottom-up cost methods to estimate the cost savings
                      associated with avoiding these activities. These bottom-up cost
                      estimates are reconciled with the top-down costs at the
                      subclass or equivalent product level.

                     Set the discount as close to the estimated cost savings as
                      possible.

                  This approach is considered 'top-down' because it begins with the
                  total incurred cost of the end-to-end product and estimates savings
                  based on that full cost.

 USO              The USO is the requirement by law or regulation that postal
                  operators provide some services that an unregulated business

                                              27
Benchmarking of Costing Methodologies                                            MS-MA-13-004



                  would not offer for economic reasons. For example, delivery to
                  every address within their countries and, in the case of letters, at a
                  uniform price and on a 5- or 6-day delivery schedule. The
                  government monopoly in postal delivery and restrictions on private
                  industry entry has traditionally been the means of ensuring that
                  Postal Operators can pay the costs of their USOs.

 Variable         Costs that vary with the level of output.
 Cost

 Volume-          Costs that are equal to the marginal cost multiplied by the current
 Variable         volume. This is the cost calculated from using the marginal cost as
 Costs            the cost for each product piece. These costs are directly
                  associated with individual products and causally assignable to
                  them. Volume-variable costs are equal to accrued cost minus non-
                  volume variable cost. The unit volume-variable costs that the
                  Postal Service currently reports are mathematically equivalent to
                  marginal costs.

 Worksharing Worksharing occurs when large mailers or mailers' agents perform
             some operations normally performed by the Postal Service (such
             as presorting, barcoding, or transporting the mail) in exchange for
             discounted rates. The discounts are aimed to match the Postal
             Service's avoided costs.




                                             28
Benchmarking of Costing Methodologies                        MS-MA-13-004



                         Appendix E: Management's Comments




                                        29
Benchmarking of Costing Methodologies        MS-MA-13-004




                                        30
Benchmarking of Costing Methodologies        MS-MA-13-004




                                        31
Benchmarking of Costing Methodologies        MS-MA-13-004




                                        32
